HHS/OIG, Audit -"Ryan White Title I Funds Claimed by the Norfolk Community Services Board of the Norfolk Eligible
Metropolitan Area During the Fiscal Year Ended February 28, 2002,"(A-03-03-00388)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by the Norfolk Community Services Board of the Norfolk Eligible Metropolitan Area
During the Fiscal Year Ended February 28, 2002," (A-03-03-00388)
December 21, 2004
Complete
Text of Report is available in PDF format (445 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Office of City Manager, a Ryan White Title I grantee, ensured
that the Norfolk Community Services Board (NCSB), one of its contractors, (1) provided the expected program services to
clients eligible for CARE Act Title I and (2) followed Federal requirements for claiming program costs under CARE Act Title
I.  The Office of City Manager did not ensure that NCSB provided the expected level of program services to eligible
CARE Act Title I clients or followed Federal requirements for charging program costs.  In addition to one procedural
recommendation, we recommended that the Office of City Manager refund $12,291 to the Federal Government for the amount
inappropriately paid to NCSB.